HHS/OIG, Audit -"Review of the Benefits Improvement Protection Act (BIPA) Modifications to Mercy Health Plans' St. Louis, Missouri Calendar Year 2001 Adjusted Community Rate Proposal Under Contract Number H-2667, Plan Numbers 001, 003, 004, 005 and 006,"(A-07-04-01001)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Benefits Improvement Protection Act (BIPA) Modifications to Mercy Health Plans' St. Louis, Missouri
Calendar Year 2001 Adjusted Community Rate Proposal Under Contract Number H-2667, Plan Numbers 001, 003, 004, 005 and 006," (A-07-04-01001)
March 2, 2004
Complete
Text of Report is available in PDF format (187 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to determine whether Mercy Health Plans (Mercy) modifications to the contract year
2001 Adjusted Community Rate Proposal (proposal), submitted under the Benefits Improvement Protection Act (BIPA) of 2000,
were supported and whether additional capitation payments were used in a manner consistent with the BIPA requirements.  Our
review determined that Mercy adequately supported modifications to the calendar year 2001 proposal.  The review also
confirmed that Mercy utilized the increased payments in accordance with BIPA requirements and as stated in their proposals.  The
increased BIPA payments were in fact used to reduce beneficiary premiums and cost sharing, and for increased payments to
stabilize provider networks.